<html>
<title> - PREVENTING ANOTHER MH370: SETTING INTER- NATIONAL STANDARDS FOR AIRLINE FLIGHT TRACKING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
         PREVENTING ANOTHER MH370: SETTING INTER-
           NATIONAL STANDARDS FOR AIRLINE FLIGHT 
           TRACKING

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                            Serial No. 114-7

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                ___________
                                
                            U.S. GOVERNMENT PUBLISHING OFFICE
94-102 PDF                      WASHINGTON : 2015                            
                     
________________________________________________________________________________________                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  
                   
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
  James Robertson, Staff Director, Subcommittee on Transportation and 
                             Public Assets
                        Melissa Beaumont, Clerk
             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DeSAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 2015................................     1

                               WITNESSES

The Hon. Michael A. Lawson, American Ambassador, The U.S. Mission 
  of ICAO
    Oral Statement...............................................     7
    Written Statement............................................    10
The Hon. Christopher A. Hart, Acting Chairman, National 
  Transportation Safety Board
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Kevin Hiatt, Senior Vice President for Safety and Flight 
  Operations, International Air Transport Association
    Oral Statement...............................................    24
    Written Statement............................................    27

                                APPENDIX

Rep. David E. Price (NC-04) Statement............................    48
Inmarsat statement for the record................................    50
NTSB responses to Rep. David Price (NC-04) Questions for the 
  record.........................................................    55
IATA responses to Rep. David Price (NC-04) Questions for the 
  record.........................................................    60
ICAO responses to Rep. David Price (NC-04) Questions for the 
  record.........................................................    62


 PREVENTING ANOTHER MH370: SETTING INTERNATIONAL STANDARDS FOR AIRLINE 
                            FLIGHT TRACKING

                              ----------                              


                     Wednesday, February 25, 2015,

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2154, Rayburn House Office Building, Hon. John Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Duncan, Amash, Duckworth, 
and DeSaulnier.
    Also present: Representative Price.
    Mr. Mica. Good morning. I would like to call this hearing 
of the House Subcommittee on Transportation and Public Assets, 
Subcommittee of Government Oversight and Reform Committee, to 
order.
    Welcome, everyone, this morning. We are pleased to have 
everyone with us, especially our ranking member. Congresswoman 
Duckworth is with us for her first hearing. Congratulations to 
her on arrival of her daughter and getting through her 
maternity leave and rejoining us here. I know she has been back 
a little while, but this is her first hearing with us, and I 
was delighted to hear when she was selected to be the ranking 
Democrat member on this important subcommittee and look forward 
to working with her. In just a minute, too, I will recognize 
her for an opening Statement, but we are very pleased to have 
you. I think we will have a very productive 2 years working 
together.
    But, again, welcome, everyone. The title of today's hearing 
is Preventing Another Malaysia Air 370: Setting International 
Standards for Airline Flight Tracking.
    The order of business today will be, we will start with 
opening Statements, and usually the order is the chairman, the 
ranking member, other members who wish to be heard. Today we 
have sort of dueling hearings; there must be 10 of them going 
on right now all at the same time, so we will have members who 
may come and go or who want to be part of the hearing. We also 
are joined by Congressman Jimmy Duncan, and I think Mr. Price 
may be joining us, and we will have unanimous consent for those 
joining us who aren't on the committee or the subcommittee to 
participate at the appropriate time.
    So, with that, after opening Statements, we will turn to 
our panel of three witnesses and welcome them this morning. I 
will introduce them, I will swear them in and hear their 
testimony, and after we hear from all three, then we will go to 
questions. So that will be the order of business today.
    So, with that, my opening Statement. Let me begin.
    At today's hearing we are going to look at recent work 
between international and domestic entities to close the 
tracking gap, as well as discuss future advancements in 
technology that will result in real-time tracking that can 
immediately alert authorities to any abnormalities during the 
flight of a commercial passenger aircraft.
    Let me say at the outset it is absolutely unacceptable that 
today we are unable to locate or properly track a commercial 
passenger aircraft. Today it is unacceptable that any passenger 
aircraft with 239 people cannot be located in an accident that 
occurred some time ago. So I believe that it is our 
responsibility to ensure that no commercial aircraft with 
passengers should be allowed to fly without a working and 
operable aircraft tracking device, and today's hearing will 
focus on where we are in that process.
    There are great implications to the problem of not being 
able to track aircraft even after an accident. But also now, 
when I visited ICAO and met with some of their officials, one 
of the concerns they expressed is the expansion of the 
international conflict zone; to date, a couple years ago, 
fairly limited in some of the Middle Eastern States. Now it is 
greatly expanded over continents, over regions, and commercial 
passenger aircraft are flying in these areas. We should be able 
to know where they are.
    We are going to address today the shoot-down of another 
passenger aircraft. But if we don't take steps to know where an 
aircraft is at all times and properly route them against 
danger, not just know where they are when they are lost, there 
will be consequences; and I predict that there will be 
additional shoot-downs of passenger aircraft because we don't 
have these systems in place.
    A required and working global aeronautical distress and 
safety system standard is long overdue. Last year, after 
Malaysia Air 370, we had a hearing in the Transportation 
Committee. A number of issues were brought up that we had to 
address. One that I cited back then and brought attention to 
the committee and the Congress was the need for action in 
getting, again, tracking capability of passenger aircraft. 
This, I might remind everyone, is 2015, and the technology 
exists, the capability exists. What we are lacking is a 
standard for all of these operating passenger aircrafts across 
the globe.
    I was very pleased to meet last year with Michael Lawson. 
He is the United States Ambassador to ICAO. Upon our very first 
meeting, we discussed this issue and he is with us here today. 
Most folks don't know what ICAO is. I was explaining it to 
staff. When I became chairman of aviation in 2001, I didn't 
know what ICAO is, but ICAO is the primary and principal 
international aviation organization responsible for setting 
aviation standards, requirements, and protocols. That is for 
all aircraft flying across the globe.
    We have 191 nations who belong, and, if you visit their 
headquarters in Montreal, I think it is bigger than the United 
Nations operation in New York City. Every country sends 
Ambassadors to ICAO representatives. They have a general 
assembly and then they have different layers of governance, and 
they set the standards for all aircraft.
    We have with us today Congressman Duncan, and he, with Mr. 
Price, has introduced U.S. legislation, and I have a copy of 
their legislation, H.R. 772, which actually, having read it 
just in the last day or so, it complies with the standards or 
refers to the standards as set by ICAO to require certain 
standards that the U.S. aircraft adopt; and we will turn to him 
for a better explanation shortly. But even if we can't pass 
this U.S. law without having the ICAO standards, American 
passengers could be protected, say, domestically with a 
domestic commercial flight if we passed it for the United 
States. But once they get outside our borders, ICAO has the 
primary responsibility for standard setting.
    I have worked with IATA and met with their representatives, 
a very responsive international transport association, and that 
is an airline organization. They can set standards for their 
airlines, but they don't set the global standards, and they can 
require compliance of their membership. So that is why it is 
important for ICAO to act.
    Interestingly enough, you may not know this, but the United 
States provides about 25 percent of the funding for ICAO, so we 
have an important stake there. We have a great representative 
who has been working with folks. And not too long ago, when I 
traveled to Montreal, arranged a meeting with the president of 
ICAO to express our concerns, on behalf of Congress, of 
adopting that standard, moving that process forward.
    If we sometimes think that Congress or the Senate is slow, 
sometimes the international organizations, getting 191 
countries to agree, that can also be a time consuming, 
difficult process, but I can't say that we could have had 
better representation than our Ambassador has given us to that 
organization, or better cooperation.
    And I want to, today, hear an update. There was a recent 
meeting and I believe today we are going to have an 
announcement on some of the standards being proposed that just 
were released. We may hear more about the status of that. I 
think it is in draft. And then the important thing is the 
timeframe for implementation.
    The fact is the technology does exist. The fact is the 
technology is on most aircraft. What is lacking is a standard. 
There is an opportunity, I think Mr. Duncan's bill provides for 
it, for enhancing some of the capability of the technology.
    I met with Mr. Hart, NTSB, and we will hear from them 
shortly. They are working with the industry to try to come up 
with a tracking device that is not only more reliable, but also 
has a longer life and a better ability to track, and we will 
hear the status of that.
    The long-term solution is, again, switching from a radar 
base to next generation air traffic control with global and GPS 
tracking so we know where every aircraft is that has passengers 
at every point on the Earth at all times, both for in the case 
of an accident and then also keeping the passengers safe in 
some of the zones I talked about that pose great risk.
    So we will learn today the status of the adoption of these 
international standards. We will look at the requirements for 
potentially longer life tracking devices and better 
technologies. We will hear from NTSB and others, the industry 
also who have comments on standards should be set that are 
reasonable and workable and implementable as soon as possible.
    So Flight 370, although a tragedy with a loss of life of 
239 individuals, from that horrible experience and still today 
not being able to locate that aircraft or those victims, we 
have a responsibility to move this process forward. Today there 
are approximately 90,000 flights around the world. The FAA 
estimates there are around 123,000 U.S. citizens boarding those 
planes every day, so while we can control domestic traffic and 
U.S. aircraft, it is important that international standard be 
there. We are looking at not just protecting citizens around 
the world, but our responsibility to U.S. citizens.
    Right now the international standard is to check every 30 
minutes when outside of radar. Of course, the long-term is next 
generation air traffic control, but listen to this. At 35,000 
feet, a Boeing 747 has a cruising speed of 570 miles per hour. 
In 30 minutes, a plane can carry nearly 400 passengers, can 
travel nearly 300 miles before anyone knows where it is. That 
is not an acceptable standard today.
    So today we are going to look at, finally, the work between 
international, domestic entities, the industry, some of our 
safety organizations, and we will hear where we are, where we 
need to go, and how we need to get there.
    So, with that lengthy opening Statement, you will find that 
sometimes I use the chairman's prerogative, which I also always 
extend to the minority. I have often told my staff that 
whatever time the other side of the aisle needs, they are going 
to get, even if it requires that we get Preparation H and sit 
here forever. That is an inside joke.
    Welcome, Ranking Member Duckworth. Congratulations, and 
look forward to working with you. You are recognized.
    Ms. Duckworth. And I thank the chairman. It is a joy to be 
here and I was especially pleased to see that you were the 
chairman of the committee, with your experience in 
transportation issue.
    So I get to have my first hearing back in Congress from 
maternity leave on an issue near and dear to my heart, which is 
airspace issue. I have flown as a pilot myself on four 
different contingents; I have flown in Egypt, I have flown in 
Guyana, Iceland, and, of course, the United States, and I found 
airspace and the control of that airspace to be very different 
in each of those areas depending on the sophistication of the 
system, the capabilities of the host governments in that area.
    So I again would like to thank the chairman for holding 
this hearing today. The hearing is critically important to 
determine what steps are being taken to improve the tracking of 
commercial international flights to ensure that all flights can 
be tracked in the event of an emergency.
    With Malaysian Airlines Flight 370's disappearance after 
almost a year of what was the most expensive search operation 
in aviation history, the aircraft still has not been located, 
and I find this event to be especially tragic and upsetting. 
First, of course, our hearts, all of us, go out to the families 
of the 239 people that lost their lives. Not only did they lose 
a loved one, but they have been denied any level of closure 
because the aircraft and even its remnants have yet to be 
found. I can only imagine the pain these family members feel 
and continue to suffer each and every day.
    In addition to the disappearance of MH370, the weaknesses 
of international flight tracking system has become very 
visible. Again, as a pilot, as a frequent flier, Member of 
Congress, O'Hare is my eastern border. I don't actually have 
O'Hare Airport in my district. Well, I have the fence and the 
grass where the geese that get in the flight path land and hang 
out, but I don't have the gift shops or any of the revenue-
generating portions of O'Hare.
    I find it unacceptable that in 2014 an aircraft can go 
completely missing for such an extended period of time without 
any answers or explanations. With all the technology available 
to us, with GPS satellite phones, the public wants to know how 
can this happen in 2014. Pilots understand it a little bit 
better, but for the general public, they don't understand, and 
these are people getting on airliners and entrusting that the 
system will be safe to carry their loved ones to their 
destination.
    Today I hope to receive some answers. Our witnesses include 
organizations that have been on the front lines of improving 
flight tracking systems, as well as creating a unified system 
for international flight tracking.
    Now, I always called it ICAO, which is how we pronounce it 
in the Army. Is it ICAO or is it ICAO?
    Ambassador Lawson. ICAO.
    Ms. Duckworth. ICAO. OK. See, we were saying it wrong in 
the Army the whole time. Well, we were just a bunch of 
helicopter pilots. What did we know?
    So ICAO, the International Air Transport Association, the 
NTSB have all been active participants in trying to find a 
solution to this problem, and I really want to thank you for 
the work you are doing. I look forward to fully examining this 
issue at great lengths today.
    I thank the chairman for his very kind and generous 
remarks, and I continue to look forward to working with him to 
monitor these issues in the future.
    I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    Now, again, I refer to his proposed legislation and one of 
the experts in Congress on aviation, former chair of the 
Aviation Subcommittee in the House, Mr. Duncan, the gentleman 
from Tennessee. You are welcome.
    Mr. Duncan. Thank you very much, Mr. Chairman, for calling 
this hearing, and thank you for your very supportive comments 
about my legislation. As you mentioned, I did chair the 
Aviation Subcommittee for 6 years, from 1995 to 2001, and then 
you followed me in that position and, of course, later chaired 
the full committee, and you always have had a great interest in 
and concern about aviation issues, and certainly that is 
evident here in your calling this early hearing in your 
chairmanship of this subcommittee.
    This is an issue that I have been interested in for a long 
time. In 1999, under the chairmanship of Jim Hall, the NTSB 
issued a safety recommendation calling for two sets of black 
boxes on commercial aircraft, and I am pleased that former 
Chairman Hall is here today. As late as the week before last, a 
working group of the ICAO organization issued a recommendation 
that deployable recording boxes be put on commercial aircraft 
in the very near future, and that is exactly what my bill, H.R. 
772, calls for as well, and certainly one of the lead witnesses 
here today is our Ambassador to ICAO, Ambassador Lawson; and we 
are pleased to have all the witnesses here.
    My bill is entitled The SAFE Act, and it requires that 
manufacturers install deployable recorders on all aircraft 
ordered after January 2017, and these deployable recorders 
would contain both voice and data information. They would 
automatically eject from an airplane upon a crash and thus 
could save untold millions of dollars in searching costs and 
would certainly be a great step forward in trying to solve the 
problems related to various aircraft crashes and so forth.
    We are really way behind the times on this. I have a report 
here that says deployable recorders have been used in military 
and over water helicopter applications since the 1960's and are 
currently available from several manufacturers. They combine 
traditional FDR and CDR functions into one unit and are capable 
of providing a comparable amount of flight data. So I think 
that we are well past the time that this should have been done 
and I am encouraged by all the support that is coming both here 
nationally and internationally for my legislation.
    Congressman Price, one of our most respected members, has 
introduced companion legislation, H.R. 753, which goes right 
along with the bill that I have introduced, and hopefully we 
can get some progress in this Congress in that regard.
    Thank you, Mr. Chairman, for calling this hearing and for 
allowing me to make these brief comments. Thank you.
    Mr. Mica. Thank you.
    Mr. Amash, did you have an opening Statement?
    Mr. Amash. I do not.
    Mr. Mica. OK. Any other members?
    Recognize Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. I have a Statement 
from Congressman Price for the record and I would like to 
submit it.
    Mr. Mica. Without objection, it will be made part of the 
record.
    Ms. Duckworth. Thank you.
    Mr. Mica. We will leave the record open for a period of 10 
legislative days for additional comments or questions to the 
witnesses. Without objection, so ordered.
    All right, if there are no further opening Statements at 
this point, I would like to introduce our panel of witnesses. 
We are very fortunate today to have with us the United States 
Ambassador to the United States Mission of ICAO, Ambassador 
Michael A. Lawson. We have the Honorable Christopher Hart. He 
is the Acting Chair of the National Transportation Safety 
Board. And we have Mr. Kevin Hiatt, and he is the Senior Vice 
President for Safety and Flight Operations for the 
International Air Transport Association.
    Some of you have been before us before. If you haven't, 
this is an oversight and investigative panel. We do swear in 
our witnesses, so if you would stand, raise your right hand. Do 
you solemnly swear or affirm that your testimony before this 
subcommittee of Congress is the whole truth and nothing but the 
truth?
    [Witnesses respond in the affirmative.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative.
    Again, welcome to each of you. Be seated.
    What we do, we don't have multiple panels and we don't have 
a huge number of witnesses, so we can be flexible on the 5-
minute rule. We do want to hear your Statement. If you have 
lengthy information or background that you want to submit to 
the record, just a simple request to the chair and we will make 
certain it is inserted in the record appropriately.
    With that, let me welcome and again thank our Ambassador, 
Ambassador Lawson, who has been great to work with on this 
issue. We will hear his testimony today. Welcome, sir, and you 
are recognized.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE MICHAEL A. LAWSON

    Ambassador Lawson. Thank you very much, Mr. Chairman. 
Chairman Mica, Ranking Member Duckworth, and other 
distinguished members of this subcommittee, I appreciate the 
opportunity to testify in front of this committee regarding 
efforts to accelerate the establishment of international 
standards relating to the tracking of commercial airliners over 
oceanic areas in response to the recent loss of Malaysia Flight 
370.
    As U.S. Ambassador to the International Civil Aviation 
Organization, this issue is one of my highest priorities. 
International responses to complex challenges have historically 
been frustratingly slow. However, in the aftermath of the MH370 
tragedy, the international aviation community has responded 
with an appropriate sense of urgency.
    Weeks after the MH370 disappearance, ICAO convened a 
special multi-disciplinary meeting to study issues related to 
global airline flight tracking. The meeting concluded that 
there was a need to accelerating the existing time table to 
track aircraft effectively and globally, and that the solution 
would have to involve more than the introduction of technology. 
A comprehensive approach that involves the coordination of 
airline industry practices, air traffic control procedures, 
search and rescue capabilities, and accident investigation 
processes would be required.
    In our following months, an industry-led task force was 
formed to focus on what airlines could do to support flight 
tracking in the near-term while the ICAO working group 
developed an overarching concept of operations.
    The ICAO concept broke the tracking problem down into four 
items: normal tracking, abnormal tracking, distress tracking, 
and retrieval of accident data. These two groups, industry and 
ICAO, worked to harmonize their proposals and, on February 3d, 
presented their recommendations to a high level safety 
conference attended by more than 850 delegates from over 120 
States. The ICAO conference endorsed the operational concept.
    I would like to call your attention to the progress made in 
two key areas, normal aircraft tracking and retrieval of 
accident data.
    Normal aircraft tracking. An international standard for 
normal aircraft tracking has progressed rapidly. The normal 
tracking standard seems basic, but it will create the 
foundation upon which additional requirements will be built. 
ICAO's proposed normal tracking standard clearly assigns 
responsibility for tracking to the airline. It requires that 
every operator track the location of the aircraft every 15 
minutes when the aircraft are flying over oceanic airspace 
unless air traffic control is providing surveillance, but also 
requires that airlines develop procedures to coordinate with 
air traffic control facilities in the event a position report 
is missed.
    We believe that these basic procedures would significantly 
improve search and rescue responses in the event another 
tragedy were to occur.
    The standards proposed by ICAO did not contain specific 
tracking technologies. Through collaboration with industry, an 
array of current and emerging technologies capable of meeting 
the proposed normal tracking standard have been identified. 
ICAO will be distributing their proposal to member States for 
review this week. ICAO will incorporate comments received from 
the States and offer the standard for adoption by the ICAO 
Council during November of this year. The planned global 
applicability date is November 2016. A copy of ICAO's letter 
has been provided for the record.
    For the United States, FAA regulations already require some 
level of centralized tracking, and U.S. airlines have fairly 
sophisticated operational control centers capable of meeting 
this challenge. However, other regions of the world may find 
this standard more challenging. For this reason, ICAO will 
conduct a normal aircraft tracking initiative in Asia later 
this year. The initiative is designed to assist in identifying 
challenges with technology and procedures, and help the 
industry gain operational experience. The FAA will be providing 
assistance and guidance and advice, and we expect U.S. airlines 
will participate.
    With respect to the retrieval of accident data, the 
proposed standards to address the recovery of cockpit voice and 
flight data recorders are also progressing rapidly. The 
standards will target the recovery of data following an 
accident. One possible method to facilitate recovery of post-
accident data would be to mandate deployable flight recorders. 
However, during the recent high-level safety conference, 
industry and regulators from around the world urged ICAO to 
draft performance-based standards that would leave the door 
open to other emerging technologies such as streaming data, 
which may be easier and possibly quicker to implement.
    ICAO has drafted the initial performance-based standards 
for accident data recovery. The standards will likely require 
changes or additions to aircraft equipment, and for this reason 
it may take several years to implement them. The standards will 
also require the development of extensive guidance materials. 
Depending on the technological solutions, the changes to 
aircraft equipment would be phased in beginning in 2019 or 
2021. The proposal is not scheduled for adoption by the ICAO 
Council until March 2016.
    Mr. Chairman, ICAO, with the support of the United States 
and the international community, has responded quickly to the 
challenge of global flight tracking. Standards that would 
normally take years of deliberation have been developed in 
months. The FAA and U.S. airlines are recognized leaders when 
it comes to the issue of aircraft tracking and, as you know, 
the FAA has, for years, provided assistance to other regions of 
the world in their efforts to adapt their operations to 
accommodate air traffic management, and now they are being 
asked to assist with aircraft tracking. This is a great example 
of America's global leadership that should be encouraged and 
continued.
    It is my hope that the United States will continue to apply 
its substantial expertise toward the development and maturation 
of global aircraft tracking standards, and that any new U.S. 
regulations will be harmonized with the international standards 
that emerge as a result of our collective efforts.
    Thank you, and I look forward to hearing your concerns and 
answering any questions you may have.
    [Prepared Statement of Ambassador Lawson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Mr. Mica. Well, thank you.
    We will go to our next witness.
    Before we do that, I see Mr. Price, the gentleman from 
North Carolina, joining us, and I would ask unanimous consent 
that he be permitted to participate in the panel, and he would 
be recognized after other members.
    Welcome, sir. Please take a seat, and you will be 
recognized. Without objection, so ordered.
    Now let me introduce and again thank also for his 
hospitality Mr. Christopher Hart, the Acting NTSB Safety Board 
Chair.
    And if members and staff have not gone down to their 
operations, I went down actually to look at some of the 
retrieved equipment from the site of the Metro arcing incident 
where one person was killed and they bring some of the parts 
and debris to their lab downtown here. But I also got a chance 
to visit upstairs several of the labs where they have airline 
crash black boxes, the remains from different crashes, even a 
bus tire in another lab, and the sophisticated equipment and 
work that NTSB does in investigating a whole host of accidents. 
If staff or members have not gone, please go down and see the 
incredible job that they do.
    But thank you for your hospitality. I know I was there and 
some of our staff, but, again, on the work you do. So welcome, 
Mr. Hart, and you are recognized.

         STATEMENT OF THE HONORABLE CHRISTOPHER A. HART

    Mr. Hart. Thank you, Chairman Mica. The pleasure was ours 
to have you come and see what we do because we are proud of it 
and we love to show it off.
    Good morning, Chairman Mica, Ranking Member Duckworth, and 
members of the subcommittee. Thank you for inviting me to 
testify today on behalf of the NTSB.
    From the start of the Air Safety Board and the Civil 
Aeronautics Act of 1938, Congress directed that the Board 
``reduce accidents by conducting studies and investigations on 
matters pertaining to safety and air navigation and the 
prevention of accidents.''
    In the history of aviation, recorders and the wealth of 
data they provide are the technology that has most helped the 
NTSB and our international counterparts achieve this objective 
of preventing accidents and improving safety. Without them, we 
are unable to determine what really happened, as was the case 
during the 2-years that the flight data recorder and the 
cockpit voice recorder remained under water after the crash of 
Air France Flight 447. Recorders significantly enhance our 
ability to determine what happened, and from that to make 
recommendations to prevent recurrences.
    From the early days of the NTSB, we have recommended that 
recorders be more robust because of the lessons learned in our 
safety investigations, and today, more than 40 years later, we 
are again asking for more improvements to recorder technology. 
Last month we asked the FAA to require that commercial aircraft 
operating more than 50 nautical miles from shore be equipped to 
transmit their location within 6 nautical miles in the event of 
a crash and to require that these aircraft be equipped with a 
low-frequency location device that will transmit their 
underwater location for 90 days. We also recommended a way to 
recover data without requiring underwater retrieval and that 
all of these requirements be harmonized internationally.
    Also, accidents such as SilkAir and EgyptAir remind us that 
seeing what is happening in the cockpit would help us know much 
better the totality of what happened, so the NTSB also 
recommended that cockpits have image recorders to capture that 
information for 2 hours. These recommendations are not about 
gotcha moments, they are about learning and improving safety.
    Earlier this month I participated in the high-level safety 
conference at ICAO that has been referred to previously with my 
colleagues who are here today. At this meeting, the ICAO member 
States considered a way forward to dealing with the issue of 
tracking aircraft in real time. The tragic events over the last 
year have focused the entire international aviation community 
in developing new standards.
    The conference proposed the development of performance-
based standards to improve tracking, locating, and data 
recovery, as you have already heard, and similar to what the 
NTSB proposed in our recent recommendations. The ICAO proposals 
are a critical step toward the option of a performance-based 
standard. More work needs to be done and the NTSB will continue 
to provide its guidance and counsel as informed by our 
investigation experience to our ICAO Ambassador as that process 
moves forward.
    The NTSB and its international counterparts have concluded 
that in this day and age lost aircraft and lost data from those 
aircraft should be a thing of the past.
    Thank you for holding this hearing on this important topic 
to advance aviation safety worldwide. I would be happy to 
answer any questions that you may have.
    [Prepared Statement of Mr. Hart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Mr. Mica. Thank you for your testimony.
    We will hear next from Kevin Hiatt. He is the Senior Vice 
President for Safety and Flight Operations of IATA. Welcome, 
sir. Thank you also for your past cooperation, and you are 
recognized.


                    STATEMENT OF KEVIN HIATT


    Mr. Hiatt. Thank you, Chairman Mica. Chairman Mica, Ranking 
Member Duckworth, and distinguished members of the 
subcommittee, thank you for the opportunity to testify on 
behalf of the 250-plus members of the International Air 
Transport Association, IATA, on this very important issue of 
aircraft tracking.
    IATA's mission in the 70 years of its existence has been to 
represent, lead, and serve the global air transport industry. 
Our members account for 84 percent of global air traffic. IATA 
and its member airlines are committed to maintaining a safe and 
efficient international air transportation system. IATA member 
airlines have an exemplary safety record, with 0.3 accidents 
per one million flights in 2013. Aviation is safe and remains 
safe because its culture is one of seeking continuous 
improvement.
    In 2003, IATA advanced global aviation safety with its 
introduction of the IATA Operational Safety Audit, known as 
IOSA, which is an internationally recognized and acceptable 
evaluation system designed to assess the operational members 
and management and control of systems and airlines. All IATA 
members are IOSA registered and must remain registered to 
maintain IATA membership.
    From 2009 through 2013, the accident rate for airlines on 
the IOSA registry was 2.5 times better than that for a non-IOSA 
registered airline. As such, IOSA has become the global 
standard, recognized well beyond IATA membership. As of October 
2014, 154, or 38 percent, of the 402 airlines that are IOSA 
registered were non-IATA members.
    In 2014, commercial aviation experienced tragedies that 
remind us that we cannot rest on our safety record and that we 
must do all our best to anticipate the unanticipated, even if 
the possibilities are deemed extremely remote. We are nearing 
an infamous first anniversary of the unexplained loss of 
Malaysia Airlines Flight 370, a State-of-the-art commercial 
aircraft operating in radar-controlled airspace.
    Soon after the disappearance of Flight 370, IATA brought 
together partners from across the aviation industry, including 
airlines, air navigation service providers, pilots, 
manufacturers, the civil aviation organization, and many other 
key stakeholders to undertake a critical review of current and 
future aircraft tracking capabilities, and identify near-term 
options to improve these capabilities.
    Throughout the summer and fall of 2014, this task force 
reviewed today's technologies, procedures, and best practices 
in terms of aircraft tracking. The task force found that most 
airlines track their fleets through a variety of means, 
including the vast majority who track through air traffic 
surveillance services, where they exist. We also verified that 
there are existing technologies, services, and procedures that 
can enhance aircraft tracking in the near-term and that a 
performance-based approach must be employed. There is no one-
size-fits-all solution. Established procedures must be followed 
and, where needed, improved to ensure clear, consistent, and 
timely communications between air navigation service providers 
and the airlines.
    While the focus of the industry group was on the near-term, 
it was recognized that emerging technologies will create new 
capabilities in the global air navigation infrastructure, 
including an improved ability to track aircraft.
    The task force report was provided to ICAO in early 
December. ICAO incorporated its findings into their Global 
Aeronautical Distress Safety System document, known as GADSS. 
GADSS is a consent of operation for routine, non-routine, 
emergency, and search and rescue situations. While these 
various stages are well defined in the GADSS document, IATA is 
concerned with suggestions that our industry should implement 
unnecessary solutions in the near-term that would be more 
effectively addressed as more effective technology solutions 
are implemented over the next years. For example, any 
deployment of automatic deployable flight recorders would be 
redundant for some airlines that implement real-time data 
streaming.
    On February 2d through the 5th, 2015, ICAO held a high-
level safety conference. The agenda from that conference 
addressed several key areas, including aircraft tracking, risks 
to commercial aviation in conflict zones, and sharing and 
protection of safety information. ICAO member States concluded 
that, one, international standards for aircraft tracking are 
needed; and, two, that a performance-based approach was 
appropriate when implementing these standards.
    IATA, along with other key stakeholders, will participate 
in an implementation initiative that will evaluate the 
feasibility of these proposed standards and provide guidance to 
both government and industry in terms of procedural gaps that 
may exist. IATA called on ICAO and its member States to move 
forward in such a way that does not result in premature, 
redundant, or unnecessary regulation.
    There are some who believe that new equipment is needed on 
board air today to enhance aircraft tracking. IATA believes 
that the immediate focus should remain on leveraging the 
equipment already installed on aircraft. More importantly, IATA 
believes that there is an urgent need to ensure adherence to 
the existing, clearly defined roles and responsibilities of air 
navigation service providers for airlines.
    Airlines are responsible for safely and efficiently 
carrying passengers. Air navigation service providers are 
responsible for maintaining safe separation and monitoring 
their airspace at all times. Furthermore, the air navigation 
service provider is the controlling authority managing routine 
and non-normal situations. As an example, an aircraft may 
deviate off track for a number or reasons, such as weather 
avoidance, vectoring for traffic, or for situations far more 
serious. In all cases, this responsibility and resulting timely 
action remains with the air navigation service provider. Air 
navigation service providers are also responsible for 
initiating alerts and search and rescue activities.
    We believe that strict adherence to these roles and 
responsibilities will advance aviation safety more effectively 
and efficiently than layers of overly redundant mitigation. We 
also underscore the importance of these roles and 
responsibilities and procedural compliance not only throughout 
the implementation initiative, but as we continue to work with 
governments and other stakeholders to ensure the safety of 
global aviation.
    IATA and its member airlines recognize that commercial 
aviation is not sustainable if the public does not have 
confidence in the safety of the global air traffic system. The 
credibility of our industry is at risk when a modern commercial 
aircraft vanishes while under air traffic control and that, in 
absence of the facts, speculation defines the accident.
    What the airline industry will never allow is speculation 
about it's No. 1 priority, the safety of its passengers and 
crew. Airlines remain committed to ensuring the safe and 
efficient operations of some 100,000 flights every day, and 
IATA will remain a vocal leader and strong voice in taking 
whatever steps are needed to honor this commitment.
    Chairman Mica, Ranking Member Duckworth, distinguished 
members of the subcommittee, on behalf of IATA, thank you again 
for the opportunity to speak today.
    [Prepared Statement of Mr. Hiatt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
    Mr. Mica. Thank you, and thank you to all of our witnesses 
for their testimony. We will now turn to some questions.
    First of all, Mr. Ambassador, I heard some timeframes cited 
as to when ICAO would actually institute a standard. Now, 
probably the most basic standard, and we just heard Mr. Hiatt 
talk about a requirement--well, first of all, about 95 percent 
of the aircraft already have equipment, that has a transponder 
so we can identify where the aircraft is, or some type of 
equipment where we have a transmitting device, is that correct?
    Mr. Hiatt, is that correct?
    Mr. Hiatt. Not for the exact number, but you are correct, a 
vast majority having tracking equipment.
    Mr. Mica. The vast majority. OK, so we have that. But the 
most simple thing would be to have a requirement in place as 
soon as possible that that be deployed, that that equipment be 
deployed. I think on 370 it was not deployed; it was on the 
aircraft, but not deployed. Is anyone aware of that, whether 
370 had that equipment? I am sure it did; it was the most 
modern.
    Mr. Hiatt. MH370 was a Boeing 777, and it did have a 
transponder on board.
    Mr. Mica. OK, so we will go back to the Ambassador. My 
initial question is, when will we have in place even the most 
basic requirement that this equipment be deployed and kept 
operational?
    Ambassador Lawson. Certainly. Let me go back and talk a 
little bit about what ICAO is trying to do and what the U.S. 
mission is trying to support.
    What we have put forth for discussion among the member 
States is a performance-based standard.
    Mr. Mica. Right.
    Ambassador Lawson. We are not prescribing any particular 
type of equipment. Why? Because, as you said, there are a lot 
of different technologies that meet this requirement; not all 
airlines have the same, but they basically have the ability to 
track their airlines.
    Mr. Mica. So if they have it, the question is making 
certain they use it. We had an aircraft with 239 people that 
had it, and it wasn't operational.
    Ambassador Lawson. It is not that it wasn't operational. We 
don't know. The problem is we really don't know what happened 
with MH370.
    Mr. Mica. Well, that is true.
    Ambassador Lawson. But the fact of the matter is what we 
believe is that it is not just the technology that we have to 
focus on, it is the technology and the coordination of the 
industry and the airlines and the air traffic control 
procedures.
    Mr. Mica. But they weren't able to track the aircraft in a 
time in which we knew where it was when it went down. Then, 
when it went down, we weren't able to locate the aircraft 
because is it the transponder?
    What do you have there?
    Ambassador Lawson. Well, as--go ahead.
    Mr. Mica. What do you have there, Mr. Hart?
    Mr. Hart. This is the cockpit voice recorder. But is pretty 
much the same----
    Mr. Mica. Is that what pings?
    Mr. Hart [continuing]. As the flight data recorder, and, 
yes, that is what pings underwater.
    Mr. Mica. OK. But we didn't know where it went down and we 
couldn't locate it; it wasn't either operational or it didn't 
operate long enough.
    Ambassador Lawson. And it is precisely because we don't 
know exactly what went wrong that we are not prescribing 
specific fixes.
    Mr. Mica. Again, I have to go back. We are stuck with all 
of us have to go back and say when will there be some action by 
ICAO to institute something. I heard some different dates. 
First I heard a date of later November this year, then November 
2016. I heard another date of March. What is going to take 
place when as far as some standards?
    Ambassador Lawson. What is happening this week is that ICAO 
is sending out to its member States the proposal with respect 
to----
    Mr. Mica. That is this?
    Ambassador Lawson. Yes. With respect to the performance-
based standards that we want to have implemented. That is going 
out this week. We expect comments back from the member States 
and we are scheduled to take this up at the council level to 
make this formal in November of this year.
    Mr. Mica. Not until November.
    Ambassador Lawson. Not until November of this year. We have 
to get responses back. But, in the meantime, we are not waiting 
on the formal responses to start an initiative to test out what 
will work and what doesn't work. It is not just the technology; 
it is how the technology is integrated with the processes that 
we have in place, and we are setting up an initiative in Asia 
that is going to be started late summer. FAA is going to be 
involved.
    Mr. Mica. So we will be well into 2016 before that?
    Ambassador Lawson. Into 2015. Late summer 2015.
    Mr. Mica. But well into 2016 by the time the standard is 
adopted.
    Ambassador Lawson. No. November 2015 is when we propose to 
adopt the standard.
    Mr. Mica. OK. OK, I am sorry.
    Ambassador Lawson. Yes.
    Mr. Mica. I kept hearing 2016.
    Ambassador Lawson. I understand your confusion, because 
this is like light speed.
    Mr. Mica. OK. And, again, you said we are moving a lot 
faster than they have previously. Well, that is good. OK, well, 
that was my major question for you.
    Mr. Hart. May I add a point to that, Mr. Chairman.
    Mr. Mica. Yes. In fact, O was going to ask you again not 
only this short-term solution. We heard about data streaming as 
another solution and global position satellites, which are 
soon, I guess, with Arion, 2017 will be in place.
    Mr. Hart, could you tell us where we are there?
    Mr. Hart. Well, as Ambassador Lawson noted that we don't 
know why we stopped being able to see where that airplane was, 
and that is part of the reason why our recommendations included 
exploring ways to make the systems tamper-proof, because we 
don't know whether they failed or were turned off 
intentionally. But that is why we have our recommendation.
    Mr. Mica. So we don't know if it was a terrorist act; we 
don't know if it was mechanical failure; we don't know natural 
disaster due to storm or something like that. We really don't 
know.
    Mr. Hart. That is correct.
    Mr. Mica. And you told me, I think, the other day when I 
visited, the long-term solution for identifying where an 
aircraft is in the global network. And I believe Arion is 
about, let's see, Iridium was going to launch these satellites 
and now Arion has 81 of them going up, and they should be 
launched globally, 81 of them, I believe, in 2017. And that 
would solve part of the problem?
    Mr. Hart. That would aim at the tracking problem. We also 
would like to get more data so that, if we lose an airplane 
underwater, we don't have to go underwater to find out what 
went wrong. So it is several aspects.
    Mr. Mica. One of the problems we have is that usually the 
pinging device goes out after 30 days. Are you recommending 
that that be changed so we would have a longer period to search 
for these aircraft?
    Mr. Hart. Yes. We included recommendations not only to 
increase the time from 30 days to 90 days, but also to change 
the frequency to a frequency that can be tracked for a much 
greater distance than this pinger.
    Mr. Mica. And data streaming, are there existing tracking 
capabilities over sea and land to have data streaming work now 
or does that rely on a global network, satellite network?
    Mr. Hart. Sort of all of the above. The ability to track is 
very good if you can't turn it off. That was our problem with 
MH370, we lost the signal and we don't know why. So that is one 
of the challenges, is, was it turned off intentionally.
    Mr. Mica. OK. Well, that is interesting. But you could make 
changes to the equipment, I know nothing about the technology, 
that would not allow it to be disarmed or disabled?
    Mr. Hart. Our recommendations have asked for the FAA to 
explore ways to make those systems tamper-proof, that is 
correct.
    Mr. Mica. OK. OK. And you have a total membership in IATA 
of about 84 percent of the airlines globally, is that correct?
    Mr. Hiatt. Pretty close, yes, 250 members.
    Mr. Mica. Now, Malaysia Air was obviously a member.
    Mr. Hiatt. Correct.
    Mr. Mica. So I can't say that the problem is just among the 
16 percent, because here we have an example of a sophisticated 
aircraft, a member of the highest level operation I would 
consider your membership of airline operators, and we still 
have a problem. The only other thing is I understand there is 
some dispute about the size of the aircraft, the number of 
passengers. Was the proposal at 16 or something?
    Ambassador Lawson. The proposal that ICAO is setting forth 
is that these rules would apply to any aircraft with more than 
19 passengers.
    Mr. Mica. Nineteen passengers. OK, very good. Well, most 
informative. Thank you all.
    Let me turn now to our ranking member, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    So I know just enough about this issue to be of danger to 
myself and others, and I am getting a little bit confused.
    Mr. Hiatt, could you just address the different issues of, 
just very briefly, the different transponders? You know, we are 
talking about here in the U.S. we are going to 80 SB. I 
understand what you are saying about there is no need to spend 
more money on equipment if you already have something that is 
capable of doing it or that is redundant. I own a 1959 Piper 
Comanche that my husband and I bought. We paid more for our 
2006 F-150 than we did for the airplane, just to give folks an 
idea of how old this aircraft is.
    And it was, when we bought it, it was fully, fully, I mean, 
it was a sweet, sweet panel for 1972. It had LORAN and all that 
good stuff, but there is still equipment in there. My six-pack 
is still perfectly good. I don't need to upgrade that into a 
glass cockpit; it works just fine. We did just now invest in 
ADS-B Out in our nav com.
    I guess what I am trying to ask you is all of your 
membership have some form, right, of ADS-B Out, an extended 
squidder or 1090ES, or something along those lines, is that not 
correct?
    Mr. Hiatt. Your analogy with your aircraft is very 
accurate, especially when you talk about LORAN. I learned on 
LORAN; but we are dating ourselves. Anyway, to go back to your 
question, your assumption is that, yes, all of our carriers do 
have a transponder. There are updated transponders that are now 
coming into effect. Not to get too technical, but they will 
allow the ADS-B, ADS-C, which is contract information out.
    Now, not all airlines have the same equipment and the 
availabilities worldwide. If we think about in the United 
States, it is very sophisticated. But when you get into other 
regions of the world, it is not quite as sophisticated, and 
those airlines have adapted their operation to the region that 
they are in, so it dictates what type of equipment they would 
have onboard.
    Ms. Duckworth. So there would actually conceivably be 
airlines, say throughout the Pacific Islands or throughout 
Asia, that don't have a 1090ES or some level of a squidding 
position reporting system?
    Mr. Hiatt. Potentially, yes. But most of them all have the 
transponder. But there is the transponder with the 1096 
squidding availability that will be put into place that will 
allow you to take advantage of the ADS-C, ADS-B type operation.
    Ms. Duckworth. Is your organization supportive or are you 
taking a wait and see or are you opposed to ICAO saying that we 
should have that squidding capability in all aircraft that are 
carrying passengers in international airspace?
    Mr. Hiatt. What IATA is in favor of and is very strongly 
for our airline members is a performance-based approach, as the 
Ambassador had said, and that performance-based approach will 
allow us to develop what is the best in technology and utilize 
several different technologies. You know, we are talking about 
ADS-B, ADS-C. We also have other technology that is available, 
and what we want to do is make sure that there isn't a 
regulation that might come out that would specify exactly what 
you need, because you may be able to take advantage of better 
technology along the way.
    Ms. Duckworth. Oh, I absolutely agree with you on that. But 
I think I am speaking to a capability here.
    Mr. Ambassador, would it not make sense to have a 
performance-based standard that says that all aircraft that 
carry passengers, especially in international airspace, over 
international waters, as in the case of Malaysian Airlines, 
have some sort of system, whatever that technology is, that is 
capable of squidding or extending squidding, which is sending 
out bursts of position data continuously, without having the 
aircraft to be interrogated by radar first?
    Ambassador Lawson. That is exactly what we are proposing. 
The specific terms that you are using are not in the document 
that has gone out this week, but that is the concept; that you 
figure out what kind of technology you have, what kind of 
technology is available, and we coordinate the processes with 
the air navigation service providers and others, search and 
rescue, so on and so forth, so that we all know how to work 
these things together. But that is exactly the process that we 
are embarking on at this point in time, that is exactly right.
    Ms. Duckworth. And I don't know who would answer this, 
whether Mr. Hiatt or the Ambassador. With military aircraft 
that would be launched or sent out there, you know, radar 
basically tells you where to go. Say you are trying to 
intercept an aircraft, for example, a non-responsive aircraft 
or something, and you are sending military aircraft.
    In the U.S., radar would tell you where to go to find these 
guys, but if you are over international waters out there where 
you are in, I mean, none of it is uncontrolled, but do they 
have the capability of receiving the data in some of these 
aircraft in the military so that they can go find an 
unresponsive aircraft or an aircraft that is gone missing, as 
in the case of Malaysian Airlines?
    Ambassador Lawson. You are talking about a level of 
analysis that we are not at yet. Right now we are talking about 
getting everybody on the same page in terms of normal tracking 
and abnormal tracking, and you are talking about distress 
tracking at that point.
    We are working on all three of these levels, and, again, 
this is a performance-based standard that we are trying to use 
and we are going to utilize every, or as the Ambassador to the 
U.S. mission, I will do what I can to push ICAO to utilize all 
of these technologies and make sure that we don't leave any 
space uncontrolled, if you will. Not controlled, but that we 
identify the various possibilities that you have identified and 
say what would we do in this situation, what would we do in 
that situation. The first such initiative, the first such test 
will take place in the summer of this year in Asia. The FAA 
will be involved. We are going to involve IATA, NTSB. We are 
going to make sure that everybody who would have a hand in an 
actual situation has a hand in figuring out what the procedures 
should be. So the questions that you ask are the questions that 
are going to be asked, and hopefully we will get some answers.
    Ms. Duckworth. Thank you, Mr. Ambassador.
    I yield back, Mr. Chairman. You have been very generous.
    Mr. Mica. Thank you.
    Mr. DeSaulnier, the gentleman from California, you are 
recognized.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I am slightly more 
dangerous, I suppose, than the ranking member, or maybe more, 
because I know really nothing about this other than the fact 
that I am flying a lot more often, so I am more concerned about 
this issue coming back and forth from the San Francisco Bay 
area most every weekend.
    Mr. Hart, nice to see you again.
    Mr. Hart. Thank you. The pleasure is mine.
    Mr. DeSaulnier. Well, it is mutual. Maybe it is like Claude 
Rains and Humphrey Bogart in Casablanca; I hope this is the 
beginning of a beautiful friendship.
    So as someone who is not familiar with the technology, but 
is from an area that prides itself on new innovation, it seems 
to a layperson that it is sort of hard to believe that we don't 
have more refined technology. In January you mentioned that it 
really shouldn't be, if I am reading the question properly, to 
obtain critical flight data faster, you really shouldn't have 
the need for immediate underwater retrieval.
    So this is directed at you, but if either of the other 
panelists want to chime in. So are there constant technological 
improvements? Have these crashes, including the 2009 Air France 
Flight 447 crash, has this started to encourage or incentivize 
new technologies and how close are we? You have mentioned near-
term, medium-term, long-term. Maybe a little more specific as 
to how we get to the long-term as quickly as possible so you 
don't have to spend all these resources trying to actually get 
the box back.
    Mr. Hart. Thank you for the question. New technologies are 
developing rapidly. The issue, as you have already heard 
several times today, is the implementation internationally, 
because not only does it need to be approved by the regulators 
in the significant countries, but then they have to harmonize 
that so that the borders are transparent. So the challenge is 
getting 191 countries to agree to where to take this, and that 
is one of the reasons that we stress performance-based, because 
there are so many different scenarios depending on the 
situation.
    Mr. Hiatt. I will just add, Congressman, that the industry 
is very onboard with looking at streaming data. We do 
recognize, though, that the automatic deployable flight 
recorder will go into effect, but we also feel that the 
technology is moving so fast that it will help the NTSB and in 
accident investigation to have that streaming data.
    Mr. DeSaulnier. And just incentivizing from the private 
sector's perspective, are there liability issues? I mean, 
obviously, there is good will and the confidence of the flying 
public, but are there other things that are impelling more R&D 
to make the technology be deployable faster, or is it mostly 
just getting multiple jurisdictions and countries to agree to 
the technology, as you just Stated? Mr. Hart?
    Mr. Hart. It is some of all of the above, because the 
incentives, ultimately the incentives are that, as the 
technologies advance, they are going to help the airlines be 
able to operate more efficiently through continuous knowledge 
back and forth. That is going to be, ultimately, a very strong 
incentive. But certainly getting everybody to agree is a major, 
major challenge.
    Mr. DeSaulnier. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Thank you.
    Welcome and recognize Mr. Price. Mr. Price, Ms. Duckworth 
put your full Statement in the record, but you are recognized 
for questions.
    Mr. Price. Thank you, Mr. Chairman. I appreciate the chance 
to sit in on this hearing today on a matter of long-term 
interest for myself and Mr. Duncan.
    I want to congratulate Ms. Duckworth on her assuming the 
leadership role she has and also, of course, welcome her back 
to the Congress.
    I do appreciate your hospitality here today and the chance 
to ask a couple questions. I know my full Statement was 
submitted in the record. This Statement reflects work that 
Representative Duncan and I have done for many years, and the 
two bills that address flight tracking and data recovery, the 
SAFE Act, which would require the use of deployable recorders, 
and the SAFE-T Act, which would much more broadly require FAA 
to take a close look at all the technologies on the table and 
develop domestic requirements in line with international 
standards.
    Ambassador, I understand, before I arrived, you talked 
about the unaccustomed speed with which ICAO was acting on this 
matter to act post-Malaysia 370, but I do have to note that 
this is not a new matter in this body, and the discussions have 
been going on for years, including discussions in your 
organization.
    At least since Air France 417 these discussions have been 
going on. Representative Duncan and I have introduced these 
bills multiple times; we have had report language in 
appropriations bills, most recently 2014, then again in the 
current year, encouraging the FAA to consider the costs and 
benefits of deployable recorder technology to work with the 
NTSB to support U.S. and international initiatives in this 
area.
    So this isn't new, but fortunately it does seem to be 
reaching a heightened level of attention, so hopefully we can 
sort through the different proposals and do something that 
actually makes a difference in something that does seem, to the 
layman, I think, seems just obsolete that we cannot deal with 
these aircraft that go down, that we never find in some cases, 
or in any case have these expensive, heart-wrenching searches 
that, surely, given the technology we have and have actually 
deployed on some of our military aircraft, surely this isn't 
necessary.
    Now, I am pleased to see that ICAO's tracking 
recommendations are coming in conjunction with or viewed as a 
complement, let's say, to automatic deployable flight 
recorders. That is a proven technology. I understand that you 
are currently moving forward to make the use of the deployable 
flight recorders a recommended practice. Is that accurate? And 
the timetable you gave earlier, does that apply to this 
recommendation in particular?
    Ambassador Lawson. The recommendation that we have on the 
table is performance-based. Deployable flight recorders is a 
possible solution that would meet that standard. Currently, the 
letter that has gone out does not specify any particular type 
of technology, but that is clearly part of the technology that 
we would expect to be implemented.
    Mr. Price. All right, that leads me to our other two 
witnesses, and since I have limited time, let me just explore 
this a little further with them, the complementarity of these 
systems.
    Mr. Hiatt, you actually Stated that deployable recorders 
would be redundant for airlines that planned to implement real-
time data streaming. I wonder about that. Could you clarify? 
Are airlines that use real-time data streaming transmitting 
exactly the same number of flight data and cockpit voice 
parameters that a standard or deployable black box is required 
to record for accident investigations? What happened to 
triggered data or real-time streaming if onboard satellite 
equipment suddenly loses power or if the aircraft loses its 
lock on the satellite?
    And then, Mr. Hart, of all the technologies being 
discussed, which ones work after the crash has occurred: 
automatic distress tracking systems, real-time data streaming, 
deployable recorders? Clearly, that is available after the 
crash has occurred; it ejects on impact, it is right there. 
Does equipping aircraft with automatic tracking capability 
guaranty that it will provide the actual position of the 
aircraft after it goes down?
    You see what I am getting at? What are the distinctive 
features and distinctive strengths of these different 
technologies? Are they, in fact, redundant and, in particular, 
what are the capabilities of the deployable recorders. That is 
obviously what I am getting at. And I would appreciate both of 
you responding.
    Mr. Hart. The specific recommendation that we made 
regarding finding aircraft that have crashed is that they, when 
in distress, are doing something that makes it possible to 
locate them within six miles after they crash. There are so 
many ways to do that. We didn't specify specifically a way to 
do it, we just said we want to be able to find the aircraft 
within six miles of where it crashed so that we are not 
searching the entire Indian Ocean.
    Mr. Hiatt. On the equipment and, as you would say, the 
redundancy, it would actually be duplicative in terms of the 
fact that we already know that the flight data recorder and the 
cockpit voice recorder will remain on the aircraft. What we are 
looking at is the technology to harvest that information sooner 
in order to be able to analyze what happened in the particular 
event.
    Now, as far as locating the aircraft, streaming data is a 
byproduct of tracking and could be utilized by the airline 
itself.
    Mr. Price. That is the point, though, isn't it? Yes, the 
recorder is there, but the recorder is at the bottom of the 
sea.
    Mr. Hiatt. So, with the streaming data, it already starts 
to point to what has taken place while the recorders are being 
recovered. If you go back and look at the history on the Air 
France 447 accident, there was a lot of information that was 
harvested within the last, really, 20 minutes of that flight 
that helped to find out where that aircraft was while, 
unfortunately, the flight data recorder and the cockpit voice 
recorder were still trying to be located.
    Mr. Price. Yes. And what I am asking you is are these kinds 
of data, the kind of streaming data you are describing and the 
data that would hypothetical be available had the black box 
ejected and floated, are those literally redundant?
    Mr. Hiatt. It would depend upon the parameters that we are 
actually required to provide to the authority, such as, in this 
case, the FAA, as far as the number of parameters that we would 
have tracked on the aircraft, which then goes back to the NTSB 
or the investigative authority as to the usefulness of the 
data. There are certain amount of parameters. We have 
progressed over many years, as you well know, with going from 
basically 10 parameters that you are looking at a tin disk now 
to volatile data and all the other things that can be 
harvested. So there are the basics and then there are those in 
addition to.
    Mr. Price. Well, thank you, Mr. Chairman. I know my time 
has expired. The bills that Mr. Duncan and I have put forward 
certainly anticipate and would promote the consideration of 
this full range of techniques and gathering methods. But I 
think we also obviously are motivated by a conviction that the 
proven technology that would instantly provide location of a 
downed aircraft, there is a certain burden of proof on those 
who would say they could replicate that or render it redundant.
    Yes, sir?
    Ambassador Lawson. I just wanted to say that these are 
specifically the types of questions and concerns that I will 
bring back to ICAO through our mission as we progress through 
our initiative and see what works and the procedures that will 
be in place. These are exactly the types of questions we are 
going to make sure that we get some answers to.
    Mr. Price. Thank you.
    Mr. Mica. Mr. Price, just a question, if you would yield. 
Your proposed legislation you and Mr. Duncan put together 
really is triggered by ICAO, isn't it, by ICAO action?
    Mr. Price. The short answer is yes.
    Mr. Mica. OK.
    Mr. Price. We have had these concerns for a long time. The 
National Transportation Safety Board in our own Country, for 
years, has had this under advisement, has explored this. But, 
yes----
    Mr. Mica. But you still had to wait for them to----
    Mr. Price [continuing]. We are latching on to the ICAO 
process, yes, that is true.
    Mr. Mica. And one of my concerns is I was trying to get the 
timeframe, and even if we get to November and they adopt it, I 
saw this document that came from the ad-hoc working group from 
ICAO, and it says how long would it take for States, that would 
be the countries, and industries to implement this proposal. 
And then the chart says there are two to 5 years. That is just 
aircraft tracking. And more than 10 years for ADT and ADFR.
    Is that accurate? I guess that is their estimate. So even 
if we are adopt it at the end of the year 2016, we are looking 
at two to 5 years, 18 onto 20, 2023 or something before this is 
implemented.
    Ambassador Lawson. That is the current timetable that is in 
this document. We are at the beginning of this stage. We are at 
the beginning of the process.
    Mr. Mica. So, Mr. Price, we still have a long way to go.
    Mr. Price. Well, let me just, in response to the way you 
put the question, though, our legislation does not depend on 
ICAO action; it is action that our Country would take. And we 
have urged repeatedly our own FAA to move forward in 
considering this. But, yes, we do anticipate conformity to ICAO 
standards.
    Mr. Mica. Well, the other thing, too, is, OK, we have I 
guess they are all corporate members of your organization, 
IATA, and you have 250 members. What is your current standard? 
Because you don't have to deal with the cumbersome process of 
implementing, and you had a member, Malaysia Air, who obviously 
didn't have functioning equipment. We don't know what the 
reason was, whether it wasn't operable or was made inoperable. 
What is your current standard? Can't you implement something 
right away, or have you, and what is your current standard?
    Mr. Hiatt. Well, as I mentioned in my testimony, 
Congressman, we have the IOSA registry, which is a standard 
that every one of our 250 members has to abide by.
    Mr. Mica. Now, is that before March of last year?
    Mr. Hiatt. Oh, yes.
    Mr. Mica. So they weren't complying? Then Malaysia Air 
wasn't complying, or we don't know if they were complying?
    Mr. Hiatt. We can't say whether Malaysia Air was in 
``standard compliance'' or not because we really don't know 
exactly what happened.
    Mr. Mica. Do you have any enforcement capability?
    Mr. Hiatt. The only enforcement capability really is the 
fact that their name or their organization, if they don't make 
the standard through their biannual audits, would be removed 
from the registry, which also then results in them being 
removed as a member of IATA.
    Mr. Mica. And we would have the capability of passing a law 
that mandates that FAA require this on any domestic aircraft or 
any carrier coming into the United States. I think we would 
have that capability.
    Mr. Price, Ms. Duckworth, wouldn't you think?
    Ms. Duckworth. Yes.
    Mr. Mica. So maybe that might be a motivator.
    We have aircraft now flying in from your organization that 
are in non-compliance? I said almost all the aircraft had the 
technical capability of compliance, and you agreed to that.
    Mr. Hiatt. That is correct.
    Mr. Mica. OK. Are you aware of any that are coming in that 
belong to your organization that don't have that capability?
    Mr. Hiatt. No, because----
    Mr. Mica. So if Mr. Price, Ms. Duckworth, and I, we 
introduce our bill that requires that any aircraft that comes 
into our domestic flight operations area have this equipment, 
that it be operable, and that it have certain requirements, 
performance, you wanted performance, you don't have a problem 
with that.
    Mr. Hiatt. Well, I am not sure if I have a--when you say a 
problem with that, I am sure my members would definitely raise 
their eyebrows on it.
    Mr. Mica. It might be coming. You might alert them, because 
when you go back now, and I love cooperating with ICAO trying 
to get this, they have 191 countries to deal with, all of them 
at different levels with different agendas, but we have an 
obligation to the American public. We are representing the 
United States.
    We also put 25 percent in the paying for ICAO, and we need 
some certainty that aircraft--and usually we set the standard, 
and by the standard we set the rest of the world usually 
complies or they sure as hell ain't gonna fly in. I mean, we 
went through this with the European Union's mission trading 
scheme. They impose on us, when we get to their border, or they 
wanted to impose from our airport to their landing cite in the 
EU certain restrictions and requirements. We sure as heck can 
require standards for those flying into the United States if 
they want that, right, Mr. Hart? You don't have to approve the 
proposal, but you would confirm that we have that ability.
    Mr. Hart. I believe we have that ability, I am not sure. 
But the problem is not in the U.S.; the problem is elsewhere in 
remote locations. That is where the problem occurs.
    Mr. Mica. That is true, but, again, we would set a standard 
for which we would hope the others would comply. And, again, we 
can't assure everything in the world. We are trying to work 
with our Ambassador; he is trying to work with those 191 
countries. But, again, we are looking at November, then we are 
looking at two to 5 years. I am trying to speed the thing up. 
He is doing the best he can.
    The other thing, too, is we haven't passed a resolution 
from the House or Congress, and I am not sure if that would 
help any. I know we sent letters up to ICAO; we have met with 
the president of ICAO and he is cooperating. But what we are 
trying to do is get this in place as soon as possible.
    It is always good to have some institutional knowledge, but 
to hear Mr. Price and Mr. Duncan, well, we have been working on 
this for years. They are ahead of the curve, but we are not 
getting to the----
    Mr. Price. That is right, Mr. Chairman, and we have had, 
for years, referenced the interest in ICAO and whoever else was 
working on this, but we have always anticipated that our 
Country should lead, our Country should set the standard.
    Mr. Mica. I might say, and I will tell you today I may look 
at some legislation to move this forward, even if it is only 
for setting a U.S. standard. We have always been the leader. We 
need to maintain that leadership role. We also need to help set 
the standard for the rest of the world. And there will be 
Americans flying on some of those planes around the globe. We 
can't guaranty all this in place instantly, but I think we can 
motivate and initiate action that will light a fire. Sometimes 
you have to do that.
    So that is the end of my questions.
    Madam Ranking Member, you are recognized.
    Ms. Duckworth. Thank you, Mr. Chairman. You know, I 
represent a district of manufacturers and small business 
owners, and I find, oftentimes, that industry can react far 
faster than governments can, and sometimes government does need 
to get out of industry's way and allow them to implement things 
that are going to be good for the industry and good for their 
customers, as well.
    With that, Mr. Hiatt, I just want to give you an 
opportunity to talk about your aircraft tracking task force and 
the near-term aircraft tracking recommendations that your 
organization is saying should be implemented even before the 
new ICAO recommendations can be put into place. So can you talk 
a little bit about some of those recommendations coming out of 
the task force?
    Mr. Hiatt. Sure, Congresswoman. We took a very detailed 
look at all of the options that were available in technology; 
there were over 27 submissions from different manufacturers in 
different areas of the world to tell us what they could do to 
track an aircraft.
    What we looked at in that sense was the fact of how soon 
any of these could be implemented, and it really got down to 
about literally five or six things that we could do as an 
industry right away with the aircraft and the existing 
equipage, as you went back and we were talking about the 
transponders and the squidder.
    But it could be, as I would say, and please excuse this 
word, primitive as nothing more than a VHF or an HF voice 
communication to let the controlling entity know where you are. 
Now, the controlling entity be either the airline or the air 
navigation service provider.
    Now, technologically speaking, is that advanced? It is 
something that has been used for years and will continue to be 
used for years; it is still being used in Africa and it is 
still being used in certain places in oceanic airspace. So with 
ADS-B, ADS-C, and then VHF capabilities and then other tracking 
capabilities that come along with ACARS on board your aircraft, 
those are the ones that our members can actually take advantage 
of right now.
    Ms. Duckworth. OK. Well, I understand what you are saying 
about the low tech sometimes works out better. When we were 
flying in Iraq, in fact, the U.S. Army was using Blue Force 
tracker, which is GPS-based, which never worked in that thing, 
which is a dead computer taking up space in my aircraft; and we 
in fact used HF to communicate with each other all throughout 
the country and something that has been around for a long time. 
So I understand.
    Ambassador Lawson, you have a thankless task. You are 
hurting cats over there and I understand the challenges that 
you are facing. I guess what I want to know is what can we do 
to be helpful to you, as you represent the United States in 
ICAO, to help you help push these standards further along, and 
what can we do here as Members of Congress to assist you in the 
work that you are trying to do?
    Ambassador Lawson. Thank you for the question and thank you 
for the offer. This opportunity to express your concerns goes a 
long way. The United States is one vote on a 36-member council, 
but our influence is greater than that; and to be able to go 
back and tell other members of the council, tell the president 
of the council, the secretary general that the intense interest 
of this Congress, of this committee, of your voices as to what 
needs to be done and what needs to be done quickly will go a 
long way.
    I am somewhat concerned about the possibility of kind of 
the Balkanization of different rules that go beyond what ICAO 
requires in terms of international airspace. The United States 
has complete control over its own airspace and we should 
continue to do that and we will not relinquish that, but what 
we are talking about is, as Mr. Hiatt said, flights over 
oceanic areas, over remote areas, this is where the danger 
occurs; and we are concerned about U.S. passengers who are 
flying on non-U.S. airlines.
    And ICAO has done a remarkable job over the years of 
focusing on its primary goal, the safety and security of 
worldwide civil aviation, and it has done a remarkable job at 
that. It is plodding at times; it is frustrating at times, and 
hurting cats is a great analogy. But make no mistake, your 
voices are heard and I will make sure that your voices are 
heard throughout the halls of ICAO, and that is a very good 
help to me.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Mica. Just finally, Mr. Hart, as I craft this 
legislation to move forward, let me ask you a question. First, 
you don't want to do things that impose hardship on industry. 
One, equipment already exists with the transponder. Part of the 
problem is keeping it on. Is there a problem or great expense 
to enable a flight recorder to stay on?
    Mr. Hart. Thank you for the question. The challenge is not 
necessarily the expense, the challenge is that any time you 
have a system that may go bad, you don't want that system's 
badness to infect the rest of the airplane. So that is kind of 
the challenge of making it so it can't be turned off. Yet, we 
are moving in that direction because the FAA has certified, 
recently, various airplane designs that do have----
    Mr. Mica. So if my bill says it has to stay on, they have 
to take technical capability of making it stay on without great 
cost or possible issues of bad things happening.
    Mr. Hart. We are on the learning curve of figuring out how 
to do that, and the big challenge----
    Mr. Mica. So if I give them, like, a year to comply, they 
could probably deal with that.
    Mr. Hart. I couldn't specify a timeframe, but we are moving 
in that direction.
    Mr. Mica. The other thing, too, is to get more than 30 days 
pinger. I think when I was there you said that there is a 
capability of making some adjustments so that most of the 
existing equipment could have a longer transmitting life?
    Mr. Hart. I would have to get back to you with respect to 
that. I am not sure of the answer to that. I know that we can 
make equipment that has 90-day capability. Whether I can take 
this one and modify it to make it----
    Mr. Mica. Can you give us that answer?
    Mr. Hart. I would be happy to get back to you.
    Mr. Mica. Again, I am not trying to impose something on 
industry that would be great cost. I would imagine, again, 
within a year or we give them a year and a half, whatever, to 
make those changes. But I am trying to get from a technical 
standpoint what can be done, and if I impose it on those flying 
into the United States, their equipment, you don't want undue 
hardship or not putting something in there.
    Long-term, though, is really global positioning satellites 
and that continuous streaming of data, and that won't be in 
place for it is beyond 2017. I think their launch schedule is 
2017?
    Mr. Hart. That will take a while. I don't know the 
specifics on the timing of that, but that will certainly take a 
while, yes.
    Mr. Mica. OK.
    Mr. Hart. And I would be happy to get back to you with what 
can be done with the existing pinger to extend its duration.
    Mr. Mica. OK. OK. And then, finally, IATA, voluntarily 
implementing your cooperative members, say, latest standards or 
standards that would cover most of what we have talked about, 
what would be the schedule for that?
    Mr. Hiatt. The current standards that we are talking about 
coming out of ICAO at the moment?
    Mr. Mica. No, anything you could do to implement higher 
standards.
    Mr. Hiatt. Well, we are encouraging our members now that if 
they have equipment that is able to track aircraft, that they 
use it that way.
    Mr. Mica. You are just sending out suggestive memos?
    Mr. Hiatt. It is coming through our committees, that we put 
that information out to the----
    Mr. Mica. With the capability for membership to meet 
certain standards?
    Mr. Hiatt. Well, they have to meet certain standards 
through the IOSA registry, as I mentioned.
    Mr. Mica. Right.
    Mr. Hiatt. Now, we have certain standards in the IOSA 
registry about flight following, but not flight tracking. So as 
we see----
    Mr. Mica. Do you intend to adopt any measures?
    Mr. Hiatt. As we see what comes from ICAO----
    Mr. Mica. So you are going to wait on ICAO.
    Mr. Hiatt. Well, it has to act in----
    Mr. Mica. I have to take my bill to do something.
    Mr. Hiatt. Let me make one point. I know you want to get 
your bill in, and I understand that the urgency is there, but I 
will say that we operate over 100,000 flights a day 
successfully. No. 2 is we recognize that the leaders in the 
world, such as the United States, have great technology, and 
they will obviously require more. But we have members from all 
over the world, and what we do want to avoid is making sure 
that I don't have five or six or seven different black boxes 
that are regulated by different entities all over the world.
    Mr. Mica. No. And I don't want to do that. But right now we 
do have one of your members who was flying an aircraft, it will 
be a year ago next week. We don't know where it is; we don't 
know where 239 people are. It wasn't a second-rate aircraft or 
equipage. But something happened to deny us knowing where it is 
or being able to locate it, and this is 1 year later.
    I heard Ms. Duckworth, she also, in her own way, said I 
can't imagine being a family member. It is bad enough for 
industry, but for people to not know what happened. We should 
know, and every aircraft that carries that many people--I know 
the rule deals with 19, but passenger aircraft, again--and we 
can't, maybe, rule the world, we don't intend to, but we have 
some leverage over what comes in and out of the United States, 
and also the obligation to set the very best standards. So we 
will look at that.
    I will wait to hear back from Mr. Hart as we craft it.
    Did you have something to say, Mr. Lawson?
    Ambassador Lawson. I just wanted to add a note that I 
applaud your approach, but it is not just technology that is 
going to solve this problem; it is the procedures that are in 
place with respect to the technologies that exist and that are 
going to exist. So all of that needs to be coordinated.
    Mr. Mica. Well, we have a voluntary private organization 
and we can adopt standards. And, again, we won't know until we 
see what happened with 370, but we can take steps. They can 
take steps voluntarily; we can mandate where we have U.S. 
jurisdiction. You have to deal in a different venue, and we 
know you are doing your best.
    But even with all that said, it is going to be years and 
years before we have this rule and then we have the 
implementation of the proposal, so we are just trying to light 
a little fire both by the oversight hearing that we are 
conducting, working with you, the industry, and the technical 
people, because the last thing you want to do and I want to do 
is impose things on industry that aren't practical or would 
impose great cost, inconvenience, or duplication.
    Well, I thank each and every one, especially our ranking 
member. Just really pleased to have her back. Again, 
congratulations.
    Thank each of you for your testimony today. We will leave 
the record open.
    There being no further business before the subcommittee, 
this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
